                                   Closeout for M96080021


    An NSF program director1 received an unusual proposal2 review from the compIamant3 and
was concerned about some of the comments in it. The program &ector brought it to OIG on
August 16,1996. The review alleged that the PI of the proposal (the subjea)4 inappropriately
used the unpublished results and methodologies of another researcher.= The proposal contained
a number of citations referencing "personal communi~ations'~with the researcher.
     The researcher informed OIG that the subject had contacted hun and expressed interest in
his research. The subject allegedly told the researcher that he was interested in a Merent
research area, but that the researcher's techniques and b i o m a t d (DNA dones and mutants)
could be useful in the subject's research. The researcher provided the subject with samples of
b i o m a t d and drafts of manuscripts, including a chapter from the researcher's graduate
student's thesis. The researcher said that he had thought they would collaborate, but the subject
had not shared the results of h research with hun. OIG has since leamed horn the subject that
he recently supplied the researcher with DNA sequencing data on clones that the researcher had
previously sent to him.
    OIG learned from the subject that he had become aware of the researcher's DNA clones
when he read one of the researcher's publications (the subject's proposal cites this
publication). The subject said that the researcher had sent hun three DNA clones generated in
the researcher's lab. The subject claimed these m a t d s were used in several different h e s of
research that were pursued independently in h and the researcher's laboratories. He said they
were a starting point for several collaborative projects between them that had been &cussed
over the last four years.
    Before submission of h proposal to NSF, the subject stated that he telephoned the
researcher to determine if the preprint or thesis chapter had been published (and could therefore
be cited in his proposal as publications). According to the subject, when the researcher replied
that neither had been pubhhed, they agreed that the best way to reference the data was to use
personal communications. There were no restrictions placed on these citations by the researcher.
 The subject d ~ dnot &cuss the specitic goal of his proposal with the researcher because they
were not collaborating on that particular project, and the subject dauned that the researcher was
aware of &SI.
   While preparing his proposal, the subject consulted the Grant PropmaZ Gaia%[GPG] NSF 95-
27 for information on citing personal communications. .The subject stated that since the


   1 (foomote redacted).
     (footnote redacted).
     (footnote redacted).
   4 (footnote redacted).
     (footnote redacted).


                                          Page 1 of 2
                                    Closeout for M96080021


researcher was not clxectly collaborating on &SI project, the GPG did not address the issue. He
noted GPG II.D.4 ("Any substantial collaboration with individuals not included in the budget
should be provided as supplementary documentation") and followed t h ~guidehe when
discussing the two collaborative projects that were a part of IS proposal.
    The subject stated that he did not propose to duplicate any of the researcher's research and
that he excluded from IS proposal anythmg that the researcher told him he was actively working
on in his lab.
    OIG concluded that the researcher gave the subject DNA clones, preprints, and a chapter
fi-om his graduate student's thesis without conditions on their use. The subject carefully
referenced the information he obtained from the researcher in hts proposal. OIG concluded that
because the subject had received information from the researcher without conditions and had
carefully referenced that information, his actions did not constitute a. serious deviation from
accepted practice and would not be characterized as misconduct in science.
   The reviewer's concerns could have been alleviated if the subject had included in his proposal
a note inhating that he used the personal communications with the permission of the
researcher.
  This inquiry is closed and no further action will be taken on d m case.

cc: Staff Researcher, Legal Deputy AIG-Oversght, AIG-Oversght, IG




                                            Page 2 of 2
